Ti

Q@OCKLE

2311 Douglas Street Le ga ] Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

J.G., by and through his Parents
HOWARD and DENISE GREENBERG,
Petitioners,

Vv.
STATE OF HAWAII, DEPARTMENT OF EDUCATION,
DENISE GUERIN, personally and in her capacity
as District Education Specialist; and FRANCOISE
WITTENBURG, personally and in her capacity
as Principal of Lokelani Intermediate School,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of November, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:
ROBERT C. THURSTON, ESQ.
THURSTON LAW OFFICES LLC
100 Springdale Road A3
PMB 287
Cherry Hill, NJ 08003
856-335-5291
rthurston@schoolkidslawyer.com

Attorney for Petitioners

Subscribed and sworn to before me this 19th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

cage Clie Onde h, hl

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38821
RUSSELL A. SUZUKI

Attorney General, State of Hawai'i
KUNIO KUWABE

HOLLY T. SHIKADA

Deputy Attorneys General
Department of the Attorney General
235 8. Beretania Street, Room 304
Honolulu, Hawai'i 96813

(808) 586-1255
kunio.kuwabe@hawaii.gov

Attorneys for Respondents
State of Hawaii, Department of Education, et al.
